         Office of Inspector General




September 28, 2006

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA

SUBJECT:      Management Advisory – Delivery and Retail Standard Operating
              Procedures – New York Metro Area (Report Number DR-MA-06-005)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the New York Metro Area
(Project Number 06XG016DR005). Our overall objective was to assess implementation
of Delivery and Retail SOP in the New York Metro Area. This is one in a series of
reports on Delivery and Retail operations issued under the Value Proposition
Agreement between the Vice President, Delivery and Retail, and the U.S. Postal
Service Office of Inspector General Delivery and Retail directorate. The information in
this report will be included in a nationwide capping report assessing implementation of
Delivery and Retail SOP.

New York Metro Area officials implemented the Delivery and Retail SOP for city and
rural delivery and Function 4 (customer service) operations. Implementation included
training supervisors and managers, developing action steps for “vital few” units, and
outlining future plans to complete remaining reviews and certifications by the end of
fiscal year (FY) 2006. Officials also certified delivery and retail units under Morning
SOP and Rural Delivery SOP and conducted Function 4 reviews. Based on our
review of city and rural delivery and Function 4 Operations, the New York Metro Area
implemented each component except for selected aspects of Delivery Point Sequencing
(DPS). Specifically, the area’s DPS percentage was below the national goal in
FY 2005. During our review, New York Metro Area officials implemented corrective
actions to improve their DPS percentage.

In addition to SOP implementation issues, management noted several challenges that
could impact the expected results from standardization efforts. Specifically,
management stated that “vital few” performers, retail transaction time, and mobile unit
earned time may impact the results achieved from the SOP implementation. We
recognize area officials’ concerns, and we plan to address the “vital few” performers and
retail transaction time issues in the capping report to Postal Service Headquarters. In
addition, we will conduct a review of mobile units in the Triboro District.
We provided management with a copy of the report and they had no issues with the
findings. We are making no recommendations in this report to New York Metro Area
management.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Kathy Ainsworth
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures -                                                      DR-MA-06-005
 New York Metro Area

                                          INTRODUCTION
Background                         Each day the U.S. Postal Service receives and delivers over
                                   700 million pieces of mail. The Postal Service delivers mail
                                   to 144 million city and rural addresses across a network of
                                   37,000 post offices and retail outlets. To receive and deliver
                                   the mail, the Postal Service has an annual field budget of
                                   about $60 billion of which roughly 51 percent is used for
                                   delivery and retail operations. Annual salary and benefits in
                                   fiscal year (FY) 2006 for rural and city carriers total about
                                   $22 billion and around $8 billion for Function 4 (customer
                                   service) operations. The New York Metro Area’s FY 2006
                                   budget is $1.8 billion for city, $110 million for rural delivery
                                   operations, and $910 million for Function 4 operations. The
                                   area is responsible for seven districts and services
                                   approximately 1,667 delivery and retail units.1

                                   To ensure the efficient use of resources, the Vice President,
                                   Delivery and Retail, issued a letter on September 30, 2005,
                                   stating that all delivery and retail units will officially
                                   implement the Standard Operating Procedures (SOP)
                                   beginning in FY 2006 to establish standard practices
                                   for managing all delivery and retail functions. In November
                                   2005, Postal Service senior management officials requested
                                   audit assistance from the U.S. Postal Service Office of
                                   Inspector General (OIG) to assess implementation of the
                                   SOP and determine how the area is monitoring units on the
                                   “vital few”2 list. In response to the request, the OIG began
                                   its nationwide review of the Postal Service’s implementation
                                   of SOP in January 2006.

                                   The SOP consists of procedures to manage city and rural
                                   delivery and Function 4 operations. Postal Service officials
                                   must implement the SOP consistently and establish a review
                                   process to validate that the programs are operable. Officials
                                   must also take appropriate responsibility for developing
                                   plans that will assure that SOP are understood and
                                   functional.

                                   Morning SOP (AMSOP) is an important component of city
                                   delivery SOP. AMSOP standardizes daily city carrier
                                   functions to align actual workhours to base workhours. The


1
  Some of these units do not have all three components: city delivery, rural delivery, and Function 4
operations. Therefore, they do not have budgeted workhours for all three operations.
2
  “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4
operations, and require specific management actions.


                                                       1
Delivery and Retail Standard Operating Procedures -                                                    DR-MA-06-005
 New York Metro Area

                                  FY 2006 goal is to certify3 all level 224 and above
                                  Delivery Operations Information System (DOIS) sites
                                  by September 30, 2006.

                                  The Rural Delivery SOP (RDSOP) standardizes daily rural
                                  carrier functions to align actual workhours to standard
                                  workhours. The FY 2006 goal is to certify5 75 percent of
                                  units with 10 or more rural routes and those units identified
                                  as “vital few.”

                                  The Function 4 operations goal is to provide a standardized
                                  and comprehensive structure for the development of an
                                  integrated review cycle that continually identifies and
                                  quantifies savings opportunities. In addition, management
                                  should conduct Function 4 Business Reviews6 to identify
                                  units with the largest opportunity for workhour
                                  improvements.

                                  A key component of the SOP is the identification of “vital
                                  few” units. These units have the largest opportunity for
                                  improvement in city and rural delivery and Function 4
                                  operations, and require specific management actions.
                                  Postal Service Headquarters provides area officials with the
                                  “vital few” list quarterly based on the performance of the
                                  previous quarter. The area monitors “vital few” units and
                                  develops action plans to correct their performance issues in
                                  city and rural delivery and Function 4 operations.

                                  Postal Service Headquarters provided delivery and retail
                                  standardization training to Area Managers of Delivery
                                  Support Programs on September 8 and 9, 2005. In addition,
                                  Postal Service Headquarters issued a memorandum on
                                  October 13, 2005, to each area outlining the area’s
                                  responsibility for training managers on the SOP. Each area
                                  was responsible for training districts by October 31, 2005.

3
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if
supervisors are matching workhours to workload, time attendance reports, office configuration, and use of
authorized overtime. Units must achieve a score of 95 or greater for certification.
4
  A level 22 post office is a grade level assigned to the postmaster of a post office according to the total
number of workload service credits attributed to the facility. The credits are based on a combination of the
responsibilities of the postmaster, the amount of employees, the size of the facility, and various operations
performed within each post office.
5
  District program managers conduct a formalized rural management review focusing on improving efficiency
in an evaluated workload environment to more closely align actual to standard hours, reduce overtime, and
reduce auxiliary assistance hours. Units must achieve a score of 85 or greater for certification.
6
  The Function 4 Business Reviews identify and quantify savings opportunities and provide a process to
ensure savings expectations are met. Function 4 SOP teams complete the on-site reviews and an
Integrated Operations Business Plan Committee provides critical support to ensure attainment of major
organizational targets.


                                                      2
Delivery and Retail Standard Operating Procedures -                                                 DR-MA-06-005
 New York Metro Area

                                 The districts were responsible for completing training for all
                                 levels of management by November 15, 2005. Further,
                                 Postal Service Headquarters requested that each area
                                 establish a review process to validate whether the SOP
                                 were adopted to ensure consistent implementation. Finally,
                                 Postal Service Headquarters informed area officials that the
                                 “vital few” list requires their attention and monitoring, which
                                 includes action plans to correct performance issues in city
                                 and rural delivery and Function 4 operations.

Objective, Scope,                Our overall objective was to assess implementation of
and Methodology                  Delivery and Retail SOP in the New York Metro Area.
                                 Specifically, we determined whether New York Metro Area
                                 officials have implemented SOP in city and rural delivery
                                 and Function 4 operations. The scope of this review
                                 focused on whether area officials implemented the SOP at
                                 the area level and excluded review at selected district and
                                 delivery and retail unit locations within the area. We did not
                                 determine the effectiveness of the implemented SOP at this
                                 time, but plan to perform future reviews and identify
                                 opportunities to increase revenue, reduce costs and improve
                                 customer service.

                                 We visited Postal Service Headquarters and the New York
                                 Metro Area to interview management officials and obtain
                                 performance data. We selected the New York Metro Area7
                                 to review based on discussions with Postal Service
                                 Headquarters Delivery and Retail officials and review of
                                 FY 2006 delivery and retail performance data for week 10.8
                                 We reviewed and analyzed performance data obtained from
                                 Postal Service systems from October 2005 through
                                 June 2006 and discussed the results with Postal Service
                                 officials.9 We relied on data from these systems to conduct
                                 interviews and analysis. However, we did not directly audit
                                 the systems, but discussed with Postal Service officials the
                                 relevance of the data to delivery and retail performance
                                 during our fieldwork.

                                 We conducted this review from January through September
                                 2006 in accordance with the President’s Council on Integrity

7
  We performed an area level review in the Eastern, Pacific, Western, Northeast, and New York Metro
Areas. We performed work at the area and selected districts and delivery and retail units in the Capital
Metro, Great Lakes, Southeast, and Southwest Areas.
8
  Week 10 performance data was only for that specific week. The weekly performance data roll-up
processes began in week 14, with year-to-date information available beginning with week 19.
9
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date
and week 34 year-to-date.


                                                    3
Delivery and Retail Standard Operating Procedures -                             DR-MA-06-005
 New York Metro Area

                              and Efficiency, Quality Standards for Inspections. We
                              discussed our observations and conclusions with
                              appropriate management officials and included their
                              comments where appropriate.

Prior Audit Coverage          The OIG has issued 12 audit reports that identified
                              opportunities to improve management of delivery and retail
                              operations. While none of these reports are directly related
                              to our objective, they do identify opportunities to improve
                              management of delivery and retail operations. The details of
                              the reports are included in Appendix A.




                                                4
Delivery and Retail Standard Operating Procedures -                                          DR-MA-06-005
 New York Metro Area

                                                 RESULTS
Implementation of                   New York Metro Area officials implemented the SOP in city
Standard Operating                  and rural delivery and Function 4 operations which included:
Procedures in the
New York Metro Area                      •    Training supervisors and managers responsible for
                                              city and rural delivery and Function 4 operations to
                                              allow further implementation by the district and unit
                                              levels.

                                         •    Developing action steps for units identified as “vital
                                              few” units.

                                         •    Outlining future plans to complete reviews on the
                                              remaining AMSOP, RDSOP, and Function 4
                                              Business Review locations by September 30, 2006.

                                     New York Metro Area officials had certified 53 percent (80 of
                                     152) of their level 22 and above DOIS sites under AMSOP.
                                     During FY 2006, week 34 year-to-date, the city delivery
                                     office hours (percent to standard) exceeded standard
                                     workhours by 100.73 percent. This was a decrease in hours
                                     from week 19 year-to-date, when the office hours exceeded
                                     the standard hours by 101.67 percent. During this same
                                     period, the deliveries per hour percentage exceeded the
                                     same period last year percentage by 1.66 percent. This was
                                     an increase from week 19 year-to-date, when the deliveries
                                     per hour percentage exceeded the same period last year
                                     percentage by 1.20 percent.10

                                     Further, area officials had certified 68 percent (39 of 57) of
                                     their rural units. During FY 2006, week 34 year-to-date,
                                     rural delivery total actual workhours exceeded standard
                                     workhours by 6.38 percent. This was a decrease from
                                     week 19 year-to-date, when the actual hours exceeded the
                                     standard hours by 8.68 percent.

                                     Finally, area officials had conducted Function 4 Business
                                     Reviews at 57 percent (79 of 138) of their planned
                                     locations.11 During FY 2006, week 34 year-to-date,
                                     Function 4 total earned hour variance was 667,297
                                     workhours. This was an increase from week 19 year-to-date
                                     when the earned hour variance was 338,934 workhours.
                                     During the same period, the window staffing efficiency for

10
     We are planning a future review on city carrier street performance.
11
     Information as of April 2006.


                                                        5
Delivery and Retail Standard Operating Procedures -                                                      DR-MA-06-005
 New York Metro Area

                                  week 34 year-to-date was 85.6 percent. This was a
                                  decrease from week 19 year-to-date when the window
                                  staffing efficiency was 86.8 percent.

                                  Based on our review of the city and rural delivery and
                                  Function 4 SOP, the New York Metro Area implemented
                                  each component of the SOP except for selected aspects of
                                  Delivery Point Sequencing (DPS). (See Appendix B.)
                                  Specifically, the area’s DPS percentage was below the
                                  national goal in FY 2005.12 New York Metro Area officials
                                  implemented corrective actions to improve their DPS score
                                  by establishing a DPS team in each district and having the
                                  Internal Control Group conduct volume recording reviews.

                                  In addition to SOP implementation issues, management
                                  noted several challenges that could impact the expected
                                  results from standardization efforts. Specifically,
                                  management stated that “vital few” performers, retail
                                  transaction time, and mobile unit earned time may impact
                                  the results achieved from the SOP implementation. We
                                  recognize area officials’ concerns, and we plan to address
                                  the “vital few” performers and retail transaction time issues
                                  in the capping report to Postal Service Headquarters. In
                                  addition, we will conduct a review of mobile units in the
                                  Triboro District.




12
   We are planning a future review that will incorporate DPS percentages, to identify opportunities to
increase revenue, reduce costs and improve customer service.


                                                      6
Delivery and Retail Standard Operating Procedures -                                                       DR-MA-06-005
 New York Metro Area




Delivery Point                     New York Metro Area did not achieve the national average
Sequencing                         for DPS mail. Their DPS mail percentage was about
                                   72 percent (or approximately 5 percent below the national
                                   average). Area officials stated that their low DPS
                                   percentage was due in part to challenges associated with
                                   secondary descriptors in the New York District and
                                   urbanizations in the Caribbean District.13

                                   DPS is the process of getting barcoded mail into the carrier’s
                                   walk sequence so the carrier can deliver it without manual
                                   sorting before going to the street. The goal of DPS is to
                                   improve efficiency and thus reduce costs. Increasing DPS
                                   letters percentage equates to decreasing cased letter
                                   volume and, therefore, time spent by the carriers in the
                                   office. As shown in Table 1, nationally, the average DPS
                                   percentage was approximately 77 percent, with some areas
                                   achieving DPS percentages in the 80s.

                                            Table 1. Average Delivery Point Sequencing
                                                      Percentages for FY 2005
                                                                                     Actual DPS%
                                                                Area                  (FY 2005)
                                                     Western                              82
                                                     Northeast                            82
                                                     Southwest                            80
                                                     Southeast                            79
                                                     Pacific                              76
                                                     Great Lakes                          76
                                                     Eastern                              75
                                                     New York Metro                       72
                                                     Capital Metro Operations             71

                                                     National                              77

                                            Source: Information provided by Postal Service Headquarters officials

                                   With the Postal Service continuing to have delivery growth,
                                   an increase in DPS letters is essential to decreasing cased
                                   letter volume and time spent by the carriers in the office.
                                   New York Metro Area officials implemented corrective action

13
  For the New York Metro Area, the New York and the Caribbean Districts have DPS percentage goals set
below the national percentage. Postal Service Headquarters has approved a DPS percentage goal of
70 percent for New York District because this district continues to have the greatest percentage of
secondary descriptors in the country. Secondary addressing encumbers over 97 percent of New York
District’s possible deliveries, which must be physically present on the mailpiece in order to receive the finest
depth of sort. If the apartment number is missing from the mailpiece then it cannot be DPS. Postal Service
Headquarters has also approved a DPS percentage goal of 15 percent for Caribbean District because of
urbanizations that require a third line in the address and Spanish language syntax.


                                                       7
Delivery and Retail Standard Operating Procedures -                                DR-MA-06-005
 New York Metro Area

                              to improve their DPS scores, which included establishing a
                              cross-functional DPS team in each district. The DPS teams
                              consist of officials from the Plant, Customer Service,
                              Address Management Systems, Marketing, and the district
                              office. The teams reviewed volume recording, the flow of
                              mail back to the plant, and mail recording for multiple
                              delivery points. In addition, area officials made requests for
                              the Internal Control Group to conduct volume recording
                              reviews at the district and unit levels. Since officials
                              implemented corrective action to improve DPS scores, we
                              are not making any recommendations.




                                                8
Delivery and Retail Standard Operating Procedures -                                DR-MA-06-005
 New York Metro Area




Management                    In addition to SOP implementation issues, management
Challenges to                 noted several challenges that could impact the expected
Standardization               results from standardization efforts. Specifically, “vital few”
                              performer, retail transaction time, and mobile unit workhours
                              may impact the results achieved from the SOP
                              implementation.

“Vital Few” Performers        Area officials were continuing to address the challenges
                              associated with the “vital few” performers. New York Metro
                              Area officials indicated that although they were
                              implementing the SOP, “vital few” units were not performing
                              to standards due to the challenges associated with meeting
                              city delivery standards. Specifically, officials noted that
                              since some information in DOIS was incorrect, many of the
                              units were not able to complete 8-point question on the
                              AMSOP certification, which asks, “Is the Delivery Operations
                              Information System Route Base Information accurate?”
                              To correct this problem, area officials were conducting
                              counts and inspections and recording the results on Postal
                              Service Form 1840, Carrier Delivery Route Summary of
                              Count and Inspection, to capture a more accurate profile of
                              the mail. Area officials believed that conducting AMSOP
                              reviews would aid in understanding the impact that the data
                              is making on performance standards.

                              In addition, area officials conducted weekly teleconference
                              meetings with appropriate district and unit officials, such as
                              the district manager, manager operations program support,
                              postmaster, and finance manager, to discuss performance
                              issues. To facilitate the meeting, area officials used the
                              unit’s daily performance report, workhour to workload report,
                              route base information, and route review report. As a result,
                              participants developed an action plan for improving
                              performance in those units.

Retail Transaction            Area officials also expressed concern that the retail
Time                          transaction time did not take into consideration the
                              additional time used by sales and services associates to
                              issue large volumes of money orders purchased at the
                              delivery and retail units. In addition, officials were
                              concerned with the additional time needed to overcome
                              language barriers between customers and sales and
                              services associates.




                                                9
Delivery and Retail Standard Operating Procedures -                              DR-MA-06-005
 New York Metro Area




Mobile Unit Earned            Area officials stated the earned time did not accurately
Time                          reflect actual time used in mobile units because those units
                              were equipped with Integrated Retail Terminals instead of
                              Point-of-Service ONE terminals.




                                               10
Delivery and Retail Standard Operating Procedures -                             DR-MA-06-005
 New York Metro Area



                                       APPENDIX A

                             PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-
06-003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 68,177 unjustified
hours over the 5-month period from January 1 through May 31, 2005, that were
not supported by volume or workload (total unrecoverable costs of $765,487).
We also noted that supervisors and managers did not always view DOIS reports
in a timely manner to manage operations, consistently use Managed Service
Point (MSP) to monitor city letter carriers’ street time to correct negative trends,
or properly document letter carriers’ unauthorized overtime occurrences and take
corrective action.

AM Standard Operating Procedures - Fiscal Year 2005 Financial Installation
Audit (Report Number FF-AR-06-096, dated March 20, 2006). The report
outlined that at 28 of the 36 post offices, stations, and branches where AMSOP
are applicable, management had begun implementation. Of those, 11 had
obtained certification and 17 were at various stages of certification. At the time of
our work, eight units had not begun implementation. Several factors contributed
to units not being certified. These factors included issues with the mail arrival
agreement with the processing and distribution plant, posting and following the
AMSOP, and Function 4 activities. We made no recommendations in this report
to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002,
dated February 8, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Detroit District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 59,208 unjustified hours
over the 5-month period from January 1 through May 31, 2005, that were not
supported by volume or workload (total unrecoverable costs of $723,586). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined
opportunities to improve the quality of Address Management System data and
put $988,945 of processing and delivery costs over the next 10 years to better



                                               11
Delivery and Retail Standard Operating Procedures -                          DR-MA-06-005
 New York Metro Area

use. Management agreed with our findings and recommendations and the
$988,945 in funds put to better use.

City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019,
dated September 29, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Chicago District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 78,248 unjustified hours
over the 5-month period from September 1, 2004, through January 31, 2005, that
were not supported by volume or workload (total unrecoverable costs of
$2,020,200). We also noted supervisors and managers did not always view
DOIS reports in a timely manner to manage operations, consistently use MSP to
monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective
action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-
013, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Santa Ana District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 83,864 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload (total unrecoverable costs of $2,127,852). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05-
014, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the San Diego District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 53,835 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload (total unrecoverable costs of $1,423,935). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-
009, dated December 2, 2004). The report outlined opportunities to improve
management of city letter carrier operations in the Rio Grande District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected that the three delivery facilities had 5,318 unjustified
hours (at an estimated cost of $193,947) not supported by volume or workload
over a 5-month period. We reported 2,543 of the unjustified hours – or $92,762 –


                                               12
Delivery and Retail Standard Operating Procedures -                            DR-MA-06-005
 New York Metro Area

as unrecoverable costs. We also noted that supervisors and managers did not
effectively use DOIS to manage daily operations, and delivery unit supervisors
and managers did not consistently perform street management or effectively use
MSP to monitor city letter carriers’ street time to correct negative trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014,
dated September 30, 2004). The Postal Service can improve the effectiveness
and efficiency of the Function 4 process in meeting or exceeding its program
goals of monitoring and measuring the potential savings of customer service
operations. Specifically, Postal Service managers could improve customer
service operations by fully utilizing the standardized Function 4 reviews and
sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number
DR-AR-04-005, dated July 26, 2004). The report stated that opportunities exist
to improve Dallas District city letter carrier office preparation operations.
Specifically, impediments existed that adversely affected delivery supervisors
and managers’ ability to adequately match workhours with workload. In addition,
city letter carriers’ work activities were not always appropriate to ensure they
departed the delivery unit as scheduled. Further, supervisors and managers did
not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth
District (Report Number DR-AR-04-001, dated June 22, 2004). The report stated
that street management and route inspections were generally efficient and
effective at the XXXXXX and XXXXXXXX Stations. Delivery unit supervisors
monitored city delivery carrier’s street time to conserve workhours by performing
at least the minimum number of required street observations. However, while a
route inspection was conducted at the XXXXXX Station delivery unit, post route
adjustment procedures were not followed to maintain routes at 8 hours.

City Carrier Productivity - Letter Carrier Delays in the Baltimore District (Report
Number TD-AR-03-011, dated July 28, 2003). The report stated that early
reporting wasted carriers’ morning time, and exposed the Baltimore District to
potential unnecessary evening overtime costs. It was noted supervisors and
managers were not using DOIS to manage carrier schedules, and consequently,
could not use the system to evaluate carrier scheduling or take corrective action.




                                               13
Delivery and Retail Standard Operating Procedures -                                                DR-MA-06-005
 New York Metro Area



                     APPENDIX B
      NEW YORK METRO AREA IMPLEMENTATION OF
DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES
                                    New York
                                   Metro Area
                                    Officials
                                  Implemented         Dates SOP           SOP Areas for
               SOP Areas           Procedures        Implemented          Improvement14
            City Delivery
            AMSOP                      Yes               10/2005                 No
            Integrated
            Operations                 Yes               10/2005                 No
            Delivery Point
            Sequencing                 Yes               10/2005                No*
            Collection Point
            Management                 Yes               10/2005                 No
            Scanning
            Performance                Yes               10/2005                 No
            Matching
            Workhours to
            Workload                   Yes               10/2005                 No
            Volume
            Recording                  Yes               10/2005                 No
            Route
            Evaluations and
            Adjustments                Yes               10/2005                 No
            “Vital Few”
            Service
            Improvements               Yes               10/2005                 No
            Rural Delivery
            RDSOP                      Yes               10/2005                 No
            Growth and
            Delivery Point
            Mgmt                       Yes               10/2005                 No
            Function 4
            Function 4
            Business Review            Yes               10/2005                 No
            RDM WOS15                  Yes               10/2005                 No

          * Corrective action was taken during review.

           Source: Information provided by Postal Service New York Metro Area officials




14
  OIG determination based on review results.
15
  The Retail Data Mart Window Operations Survey (RDM WOS) tool is used during standardized Function 4
on-site reviews at retail postal units. The tool provides information on the retail workload based on the
number and types of transactions conducted at the retail counter.




                                                   14
